No. 19IN THE

RICHARD DAVID WEISSKOPF
Petitioner,
v.
JEWISH AGENCY FOR ISRAEL, et al
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that on July 26, 2019,1 mailed three hard copies of the corrected
petition for writ of certiorari to counsel for the Respondents listed below via USPS.
Robert Reeves Anderson

ARNOLD & PORTER KAYE SCHOLER LLP
370 Seventeenth Street, Suite 4400
Denver, CO 80202
(303) 863-2325
Kenneth B. Danielson
Kaufman, Dolowich & Voluck LLP
25 Main Street, Suite 500
Hackensack, NJ 07601
(201) 488-6655
Gerald D. Silver
Sullivan & Worcester LLP
1633 Broadway
New York, NY 10019
212 660 3000

Robert E. Crotty
Kelley Drye & Warren LLP
101 Park Avenue
New York, NY 10178
(212) 808-7800

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct to the best of my knowledge and belief.
Executed on July 26, 2019.

/Richard David Weisskopf

